<html>
<title> - U.S. POLICY TOWARD NORTH KOREA AFTER THE SECOND SUMMIT</title>
<body><pre>[Senate Hearing 116-207]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-207
 
                   U.S. POLICY TOWARD NORTH KOREA 
                        AFTER THE SECOND SUMMIT

=======================================================================

                                HEARING


                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIA,
                     THE PACIFIC, AND INTERNATIONAL
                          CYBERSECURITY POLICY


                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION



                               __________

                             MARCH 26, 2019

                               __________


       Printed for the use of the Committee on Foreign Relations
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
                         ______                      


              U.S. GOVERNMENT PUBLISHING OFFICE 
 40-599 PDF            WASHINGTON : 2020                         
                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas


              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



            SUBCOMMITTEE ON EAST ASIA, THE PACIFIC,        
             AND INTERNATIONAL CYBERSECURITY POLICY        

                CORY GARDNER, Colorado, Chairman        
MARCO RUBIO, Florida                 EDWARD J. MARKEY, Massachusetts
RON JOHNSON, Wisconsin               CHRISTOPHER A. COONS, Delaware
JOHNNY ISAKSON, Georgia              JEFF MERKLEY, Oregon
TODD YOUNG, Indiana                  TOM UDALL, New Mexico





                               (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Gardner, Hon. Cory, U.S. Senator From Colorado...................     1


Markey, Hon. Edward J., U.S. Senator From Massachusetts..........     2


Cha, Dr. Victor, Senior Adviser and Korea Chair, Center for 
  Strategic and International Studies, Washington, DC............     4
    Prepared statement...........................................     6


Magsamen, Kelly, Vice President, National Security and 
  International Policy, Center for American Progress, Washington, 
  DC.............................................................     8
    Prepared statement...........................................    10


              Additional Material Submitted for the Record

Letter to Secretary Michael R. Pompeo and Secretary Steven T. 
  Mnuchin 
  Submitted by Senator Edward J. Markey..........................    30





                             (iii)        


                   U.S. POLICY TOWARD NORTH KOREA 
                        AFTER THE SECOND SUMMIT

                              ----------                              


                        TUESDAY, MARCH 26, 2019

                               U.S. Senate,
       Subcommittee on East Asia, the Pacific, and 
                 International Cybersecurity Policy
                             Committee on Foreign Relations
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:35 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Cory Gardner, 
chairman of the subcommittee, presiding.
    Present: Senators Gardner [presiding], Markey, and Young.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. This hearing will come to order.
    I'd like to welcome everyone to the first hearing of the 
Senate Foreign Relations Committee subcommittee on East Asia, 
the Pacific, and international cybersecurity policy. Glad to be 
participating again in this Congress with my good friend and 
ranking member, Senator Markey. During the 115th Congress, our 
subcommittee was the most active subcommittee on the Foreign 
Relations Committee, holding nearly a dozen hearings and, 
really, that guided us into our legislation on the Asia 
Reassurance Initiative Act, a generational achievement for U.S. 
policy in the Indo-Pacific. I sincerely hope that we can keep 
this subcommittee bipartisan and productive in this Congress as 
well, as it has been.
    We're at a real inflection point in our policy toward North 
Korea. At the outset, we should commend the Trump 
administration for moving beyond press-released diplomacy in a 
genuine attempt to resolve a very serious national security 
issue that has bedeviled multiple administrations, both 
Democrat and Republican alike. But dealing with Kim Jong-un and 
the Kim family has been one series of rope-a-dopes. Deception 
is certainly a key to the strategy that they have led for 
generations.
    Our team, led by Secretary Pompeo and special 
representative Steve Biegun, deserve major credit for 
attempting to move the ball forward. Unfortunately, despite the 
pomp and circumstance, commemorative coins, prime-time TV 
coverage, the summit in Singapore and most recently in Hanoi 
have not moved us any closer to the goal enshrined in U.S. and 
international law to complete, verifiable, and irreversible 
dismantlement/denuclearization of North Korea's illicit 
nuclear, missile, chemical, biological, and radiological 
weapons programs.
    While there has been no missile or nuclear testing for 15 
months--that is a very good thing--North Korea still remains a 
nuclear threat to the United States and our allies. This 
incontrovertible fact was most recently confirmed by the 
administration's own 2019 Worldwide Threat Assessment released 
by the Director of National Intelligence on January 29th. The 
summit pageantry has also not resulted in any significant 
changes in North Korea's atrocious human rights record. For the 
Kim regime, it's a time of choosing: continue the failed game 
plan of father and grandfather or open a new chapter of 
opportunity. This is where we are unfortunately falling short. 
But make no mistake, the blame for the lack of progress lies 
squarely with Pyongyang.
    So where do we go from here? We must always remember that 
the goal of any negotiations with Pyongyang must only be to 
bring the regime into compliance with its international 
obligations; no more, no less. This is also the United States 
law, as enshrined by the North Korea Policy Enhancement Act and 
the Asia Reassurance Initiative Act. Until such time as the 
regime chooses to comply, we must pursue the policy of maximum 
pressure, including full sanctions enforcement, robust military 
posture, and regime isolation and coordination with our allies 
and partners around the globe. North Korea's enablers must 
recognize the destabilizing effect and proliferation risk of a 
nuclear North Korea. Maximum pressure means sanctioning Korea's 
enablers. Strategic patience failed. We must not repeat it. 
That should be our message both to the administration and 
especially to our friends in Seoul, who seem especially eager 
to advance the cause of inter-Korean cooperation without a 
tangible change in behavior from Pyongyang.
    To examine these and other questions, we've assembled an 
excellent panel of witnesses today. I look forward to hearing 
from you both, but I'll first turn to Senator Markey for his 
comments.

              STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much, and 
thank you for convening this hearing and your continued 
willingness to focus on the challenges posed by North Korea.
    And I want to thank our witnesses, as well, for your 
willingness to participate. You both are experts with extensive 
governmental experience, and I am glad you are here to help us 
shed some light on what American policy towards North Korea 
should be, and I look forward to learning from both of you.
    At the same time, it must be said, we still need to have an 
open hearing with government witnesses to discuss the 
administration's strategy for denuclearizing North Korea. I 
want to thank the chairman for trying to secure those 
witnesses, and I urge the Trump administration to make them 
available so that the American people can hear firsthand about 
what objectives our negotiators are trying to achieve and how 
they are going about achieving them.
    After all, a fundamental component of a transparent 
American government is public debate. Congress has an 
obligation to ask for administration witnesses, and the 
executive branch has an obligation to testify. The American 
people deserve nothing less. Although President Trump's special 
representative for North Korea, Steve Biegun, gave a classified 
briefing to members following the Hanoi summit, there has been 
very little congressional interaction before or since. History 
shows us that diplomacy with North Korea falters without clear 
and regular communication between the executive and legislative 
branches.
    Now, the topic of today's hearing is North Korea's policy 
after the Hanoi summit. But determining the future policy 
direction requires us to understand how we got here. To be 
clear, Kim Jong-un, a third-generation dictator, is to blame 
for flouting international condemnation by drastically 
expanding his nuclear weapons capabilities, bringing the threat 
to America's door. He has abused the North Korean population 
almost beyond comprehension and engages in every type of 
illegal and destabilizing activity. But U.S. policy matters as 
well. Upon taking office, President Trump engaged in a war of 
words with Kim Jong-un that unnecessarily risked actual war on 
the peninsula. Unsurprisingly, taunts of fire and fury did not 
succeed in lowering the nuclear threat from North Korea. The 
bluster did not yield results. Kim Jong-un did not capitulate.
    Thankfully, the President turned away from the military 
threats, perhaps under the mistaken belief that they were 
working, and towards engagement. As a proponent of diplomacy 
and an observer of the U.S.-North Korean nuclear negotiation 
history, I believe his unorthodox approach of leader-level 
summits was worth trying. But to have a chance of succeeding, 
we, at the very least, needed robust, working-level 
negotiations with empowered American diplomats along with 
comprehensive and sustained sanctions enforcement. 
Unfortunately, we have not had any of these components. 
American engagement was too little, too late, and the 
President's itchy Twitter finger undermined our diplomats at 
every turn. Why is it, for example, that Kim Jong-un appeared 
to believe that he could get a better deal from President Trump 
than he could through working-level talks? President Trump's 
fawning about being in love sent the signal to Kim that the 
U.S. President might be willing to give significant concessions 
to North Korea without meaningful steps towards 
denuclearization.
    Although I am relieved that President Trump did not give 
away the store in Hanoi, negotiations that are well-planned and 
strategic must continue. And while we need to continue to 
analyze the summit's outcome, we need to plot the course 
forward, and there are many unanswered questions.
    Steve Biegun said that ``We are not going to do 
denuclearization incrementally.'' So, then, how is the 
administration going to achieve North Korean denuclearization 
at all, given the unlikelihood of a major deal up front? How is 
the administration going to get back to the table? How is the 
administration going to ensure that China, Russia, and other 
enablers of North Korea's bad behavior will fully enforce 
existing sanctions, especially when the President seems intent 
on easing pressure? And what message does it send to the rest 
of the world if we don't prioritize sanctions enforcement? What 
would be the implications on the global nonproliferation 
regime? Has the Trump administration sufficiently raised human 
rights issues with the North Koreans?
    I am eager to hear from our expert witnesses today on these 
and other questions because although I am extremely skeptical 
that Kim Jong-un is willing to abandon his nuclear weapons 
program, we must continue to pursue diplomacy, which is the 
only solution to dealing with North Korea. And I very much hope 
that the administration, with its ham-handed approach to date, 
has not squandered a rare opportunity to make progress.
    So I thank you, Mr. Chairman, and I look forward to 
exploring all of those issues with our expert panel.
    Senator Gardner. Thank you, Senator Markey.
    Our first witness is Dr. Victor Cha, who is a Senior 
Adviser and Korea Chair at the Center for Strategic and 
International Studies, CSIS. From 2004 to 2007, Dr. Cha served 
as Director for Asian Affairs at the National Security Council, 
where he was responsible primarily for Japan and Korean 
Peninsula, Australia, New Zealand, and Pacific Island nation 
affairs. He was also the Deputy Head of Delegation for the 
United States at the Six-Party Talks in Beijing and received 
two outstanding service commendations during his tenure at the 
National Security Council.
    Dr. Cha is no stranger to this committee--whether you like 
it or not, the subcommittee--having testified here both in the 
115th Congress and in the 114th Congress as well. I welcome 
come back Dr. Cha. Thank you very much for your service and 
being here today.
    Of course, our next witness--I'll introduce you both right 
now and then we'll start with Dr. Cha--is Ms. Kelly Magsamen, 
who is Vice President for National Security and International 
Policy at the Center for American Progress. Previously, she was 
the Principal Deputy Assistant Secretary of Defense for Asian 
and Pacific Security Affairs and also performed the duties of 
Assistant Secretary of Defense, where she was responsible for 
defense and security policy for all of Asia and served as 
principal adviser to the Secretary of Defense. Prior to her 
tenure at the Pentagon, she served on the National Security 
Council staff for two presidents and four national security 
advisers.
    I welcome Ms. Magsamen, and thank you very much for your 
service, as well.
    Dr. Cha, we'll begin with your testimony.

 STATEMENT OF DR. VICTOR CHA, SENIOR ADVISER AND KOREA CHAIR, 
 CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Dr. Cha. Thank you, Chairman Gardner, Ranking Member 
Markey. It's a pleasure to be with you to discuss options for 
U.S. policy on North Korea after the second summit.
    There were high expectations at the second meeting in 
Vietnam last month after the absence of progress on 
denuclearization commitments made in Singapore the previous 
summer. Not only were the two leaders unable to deliver an 
agreement with tangible steps on denuclearization, they also 
dispensed with the joint statement signing, and in a solo press 
statement, the President said that sometimes ``you have to 
walk. This was just one of those times.''
    Nonetheless, the Hanoi summit has left us with no clear 
diplomatic road ahead on this very challenging security 
problem, a trail of puzzled allies in Asia, and a promise of no 
more made-for-TV summits, at least for the foreseeable future. 
The question is where do we go from here? While I do not think 
this will mean a return to the fire and fury days of 2017 when 
armed conflict was possible, as you both referred to, we have 
learned a number of lessons from Hanoi going forward.
    First, the North Korean position at Hanoi reflects little 
change in their negotiating strategy despite holding the 
audience of the U.S. President. President Trump essentially 
tested the critical thesis that had hung over previous 
negotiations for decades; that is, the North Koreans will not 
truly show their hand and take big steps unless we talk 
directly to the leadership. Yet, what we found in Hanoi was 
that North Korea stuck stubbornly to its same negotiating 
strategy, which is to negotiate its past when it comes to its 
nuclear programs, but not its present nor its future. What this 
means is that Pyongyang is only willing to put on the table 
elements of its program that it no longer really needs, such as 
an old nuclear test site or an old plutonium reactor, while 
preserving their present and their future--their nuclear 
weapons arsenal, fissile material, missile bases, uranium 
program. In exchange, however, they want real concessions from 
their negotiating counterpart, like sanctions relief.
    Second, I believe that both sides walked away from the 
summit with the core belief that pressure works. In the case of 
the United States, the fact that the North Korean leader 
prioritized sanctions relief above all other concessions taught 
us that the sanctions are indeed working. Similarly, the fact 
that the North Koreans came to Hanoi with a bad deal in hand 
intimates a belief that President Trump was under pressure to 
take less than half a loaf. Furthermore, revelations by CSIS 
and other think tanks documented North Korean activity at the 
Sohae satellite launch facility to return the site to normal 
operating status after an initial dismantlement earlier in the 
summer of 2018. This again suggests the North believes more 
pressure is necessary to soften up the U.S. position. This does 
not suggest a rocket launch or nuclear test is imminent, but it 
does suggest that the situation could take a downward turn 
before a resumption of diplomacy.
    Third, the U.S. should be prepared for other regional 
partners to start lobbying us to change our position. Whenever 
we reach an impasse with North Korea and the diplomacy, third 
parties know that it is impossible to move the intransigent 
North Koreans. So, invariably, they come to the United States 
to find a solution. So as unreasonable as the North is, those 
that want to see continued diplomatic progress, like the South 
Koreans and the Chinese, will invariably come to us, complain 
about the North's behavior, empathize with our frustrations, 
and then ask Washington to be more flexible.
    Fourth, we should expect North Korea to retrench in the 
aftermath of the summit. The outcome constituted a major 
embarrassment for the North Korean leader, and it would not 
surprise me if there were personnel changes as a result of the 
field summit. The question is when they reemerge, whether North 
Korea will cycle back to a provocation track or whether they 
will look for a diplomatic path forward. Our data research at 
CSIS shows that when bilateral negotiations break down with the 
United States and North Korea over the past three decades the 
likelihood of provocations happening within 5 months of the 
breakdown of negotiations is high.
    Fifth, human rights continues to be neglected in the 
administration's summit diplomacy. It is impossible for U.S. 
denuclearization diplomacy to succeed without integration of 
the human rights issue. Because of the sanctions levied by this 
body, there is no company or international financial 
institution that will enter North Korea given human rights 
violations in the supply chain. Thus, the President's promises 
of casinos and condominiums on the beaches of North Korea in 
return for denuclearization ring hollow without beginning a 
real dialogue on human rights.
    Finally, we are left with the question of who benefits from 
a pause in the diplomacy. We believe that time is on our side 
because of the continued bite of economic sanctions. But the 
North believes their continued production of weapons, 
materials, and missile designs puts added pressure on the 
United States. In either case, President Trump may be realizing 
the limits of his bromance diplomacy with North Korea. If he 
loses interest, then we are unlikely to see any progress for 
the remainder of his term in office, which will make Americans 
less secure, not more secure.
    Thank you.
    [The prepared statement of Dr. Cha follows:]

                  Prepared Statement of Dr. Victor Cha

    Chairman Gardner, Ranking Member Markey, and distinguished members 
of the committee, thank you for the opportunity to appear before this 
committee to discuss options for U.S. diplomacy on North Korea after 
the second Trump-Kim summit.
    There were high expectations at this second meeting of American and 
North Korean leaders in Vietnam last month after the absence of 
progress on denuclearization commitments made at the first summit in 
Singapore last summer. Not only were the two leaders unable to deliver 
an agreement with tangible steps on denuclearization, they also 
dispensed with the joint statement signing, cancelled the ceremonial 
lunch, and skipped the joint press conference. In a solo presser, the 
President said that sometimes you ``have to walk, and this was just one 
of those times.'' \1\
    The President indeed may have avoided getting entrapped into a bad 
deal at Hanoi. What North Korea put on the table in terms of the 
Yongbyon nuclear complex is a fraction of their growing nuclear program 
that does not even break the surface of their underlying arsenal and 
stockpiles of fissile materials, not to mention missile bases and 
delivery systems. And what they sought in return, in terms of major 
sanctions relief on five U.N. Security Council resolutions that target 
90 percent of their trade, would have removed one of the primary 
sources of leverage, albeit imperfect, on the regime. In this instance, 
no deal was better than a bad deal.
    Nevertheless, the Hanoi summit has left us with no clear diplomatic 
road ahead on this challenging security problem, a trail of puzzled 
allies in Asia, and the promise of no more made-for-television summit 
meetings for the foreseeable future. The question remains: where do we 
go from here?
    When leaders' summits fail to reach agreement, diplomacy by 
definition has reached the end of its rope. President Trump and 
Secretary Pompeo put the best face they could on in Hanoi, talking 
about closer understanding and continued good relations between the two 
sides as a result of the meetings, but the failed summit leaves a great 
deal of uncertainty going forward. South Koreans will frantically seek 
meetings with Washington and Pyongyang to pick up the pieces. The North 
Koreans already have sent an envoy to China to chart next steps.
    While I do not think this will mean a return to the ``Fire and 
Fury'' days of 2017 when armed conflict was possible, we have learned a 
number of lessons from Hanoi going forward.
    First, the North Korean position at Hanoi reflects little change in 
their negotiation strategy despite holding the audience of the U.S. 
President. This was perhaps the most disappointing outcome of the 
summit as a long-timer observer and participant in past nuclear 
negotiations. President Trump essentially tested the critical thesis 
that had hung over previous negotiations for decades. That is, the 
North Koreans will not truly show their hand and take big steps unless 
we talk directly to the leadership. Critics of the Six Party talks made 
that observation countless times to us when we were negotiating. Yet, 
what we found in Hanoi was that North Korea stuck stubbornly to its 
same negotiating strategy, which is to negotiate its ``past'' when it 
comes to its nuclear weapons programs, but not its ``present'' or its 
``future.'' What this means is that Pyongyang is only willing to put on 
the table elements of its program that it no longer really needs--such 
as an old nuclear test site or the old plutonium reactor at Yongbyon, 
while preserving their ``present''--nuclear weapons arsenal, fissile 
material, missile bases, and uranium program--and their ``future,'' 
which are promises on future production bans. In exchange, however, 
they want real concessions from their negotiating counterpart like 
sanctions relief.
    Second, I believe that both sides walked away from the summit with 
the core belief that ``pressure works.'' In the case of the United 
States, the fact that the North Korean leader prioritized sanctions 
relief above all other U.S. concessions taught us that the sanctions 
are indeed working. There were many other things that could have been 
asked for--including the exchange of liaison offices and even a peace 
declaration ending the Korean War--but the North Korean leadership made 
clear that only one thing mattered, which just reinforced that the 
maximum pressure campaign is having an impact. For some in the 
administration like National Security Advisor John Bolton, this means 
the pressure should continue and even increase, not abate.
    Similarly, the fact that the North Koreans came to Hanoi with a bad 
deal in hand intimates a belief that President Trump was under pressure 
to take less than half-a-loaf. Apparently in working level talks in the 
run-up to the summit, U.S. negotiators made clear that the offer of 
Yongbyon for sanctions relief was not nearly workable and yet the North 
showed up in Hanoi with the same position (and with no fallback 
position). Furthermore, revelations by CSIS and other think tanks 
documented North Korean activity at the Sohae satellite launch facility 
to return the site to normal operating status after initial 
dismantlement earlier in the summer of 2018 again suggests that the 
North believes more pressure is necessary to soften up the U.S. 
position.\2\ This does not suggest that a rocket launch or nuclear test 
is imminent, but it does suggest that the situation could take a turn 
downwards before a resumption of diplomacy.
    Third, the U.S. should be prepared for other regional parties to 
start lobbying us to change our position. This is what I once referred 
to as the dilemma of American reasonableness.\3\ Whenever we reach an 
impasse with North Korea in the diplomacy, third parties know that it 
is impossible to move the intransigent North Koreans; therefore, they 
invariably come to the U.S. to find a solution. Coming out of Hanoi, 
both the Chinese and South Koreans acknowledge openly that Pyongyang 
missed a golden opportunity. After numerous visits to the White House 
by Kim's envoys, trips by Pompeo to Pyongyang, and two summit meetings 
with the U.S. President (a meeting they have sought for 60 years), the 
North was given the chance to make historic progress. Yet, the best 
they could manufacture was a minimalist position that one would have 
expected to hear as an opening gambit at the working level rather than 
in the key negotiation between the two top leaders. Yet as unreasonable 
as the North is, those who want to continue to see diplomatic progress, 
like the South Koreans and Chinese, will invariably come to the United 
States, complain about the North's behavior, empathize with our 
frustration, and then ask Washington to be more flexible.
    Fourth, we should expect North Korea to retrench in the aftermath 
of the Hanoi summit. The outcome constituted a major embarrassment for 
the North Korean leader and it would not surprise me if there were some 
personnel changes as a result of the failed summit. The question is 
when they re-emerge whether Pyongyang will be cycling back to a 
provocation track or focused on finding a diplomatic way forward. In a 
bizarre Tweet last week, on March 22, President Trump appeared to 
unilaterally pull back additional Department of the Treasury sanctions 
against the North Korean regime in a bid not to upset the momentum; 
however, our data research at CSIS shows that when bilateral 
negotiations break down between the U.S. and North Korea over the past 
three decades, the likelihood increases of a North Korean provocation 
within 5 months.\4\
    Fifth, human rights continue to be neglected in the 
administration's summit diplomacy with North Korea. The only relevant 
statement in this regard was the President's defense of the North 
Korean leader's professed ignorance of the murder of American college 
student Otto Warmbier. The President had an opportunity to ask for a 
full accounting of what happened to Otto as well as a statement of 
regret. It is impossible for U.S. denuclearization diplomacy to succeed 
without integration of the human rights issue. Because of the sanctions 
levied by this body, there is no company or international financial 
institution that will enter North Korea given human rights violations 
in the supply chain. Thus, the President's promises of casinos and 
condos on the beaches of North Korea in return for denuclearization 
ring hollow without beginning a real dialogue on human rights.
    Finally, we are left with the question of who benefits from a pause 
in the diplomacy. We may believe that time is on our side because of 
the continued bite of the sanctions, but the North may believe their 
continued production of weapons, materials, and missile designs puts 
added pressure on the United States. In either case, President Trump 
may be realizing the limits of his ``bromance'' diplomacy with North 
Korea. If he loses interest, then we are unlikely to see any progress 
for the remainder of his term in office, which will make Americans 
less, not more secure.

----------------
Notes

    \1\ ``Remarks by President Trump in Press Conference Hanoi, 
Vietnam,'' The White House, February 28, 2019.
    \2\ Joseph Bermudez, ``After Hanoi Summit: Rebuilding of Sohae 
Launch Facility,'' CSIS Beyond Parallel, March 5, 2019; ``North Korea's 
Tongchang-ri: Rebuilding Commences on Launch Pad and Engine Test 
Stand,'' 38 North, March 5, 2019.
    \3\ Victor Cha, ``Delisting North Korea,'' The Washington Post, 
October 13, 2008.
    \4\ Lisa Collins, ``25 Years of Negotiations and Provocations: 
North Korea and the United States,'' CSIS Beyond Parallel, October 2, 
2017.

    Senator Gardner. Thank you, Dr. Cha.
    And Ms. Magsamen.

STATEMENT OF KELLY MAGSAMEN, VICE PRESIDENT, NATIONAL SECURITY 
    AND INTERNATIONAL POLICY, CENTER FOR AMERICAN PROGRESS, 
                         WASHINGTON, DC

    Ms. Magsamen. Chairman Gardner, Ranking Member Markey, and 
members of the committee, it's an honor to be invited today to 
give testimony on U.S. policy towards North Korea. It's also a 
great honor to be sitting alongside Dr. Cha, whose extensive 
experience on this issue is unmatched and whose analysis I seek 
to inform my own.
    Today, after two U.S.-North Korea summits in Singapore and 
Hanoi, North Korea still has upwards of 60 nuclear weapons and 
is continuing to accumulate fissile material to make more. It 
retains the ballistic missile capability to threaten Hawaii, 
Guam, Alaska, the West Coast, and good portions of the 
continental United States. And North Korea also retains a 
conventional capacity to put Seoul and South Korea at 
acceptable risk. In sum, the threat has not changed.
    I want to be clear at the outset that I am a strong 
supporter of diplomacy with North Korea, but I also want to be 
clear that I think the administration is doing it wrong. And 
while better than the days of fire and fury, this problem is 
not going to be solved through reality TV episodes. It's going 
to take deliberate, integrated, and coherent interagency effort 
in close partnership with the international community.
    In the case of the Hanoi summit, many of us were worried 
about the possibility of a bad deal. The good news is that 
didn't happen. The bad news is that the way forward is now 
deeply uncertain and full of risks. We cannot be complacent in 
the status quo even if it is better than fire and fury, and we 
cannot keep grading the administration on a curve. The reality 
is that the Hanoi summit never should have happened. The 
President of the United States went into a room with Kim Jong-
un for a second time with no firm commitments and only a rough 
outline of possibilities as well as maximalist allusions of a 
grand bargain that he alone could make. It turns out this is 
not real estate; it's actual rocket science.
    Setbacks in diplomacy are to be expected. With proper 
preparation, they can be managed and even clarifying for both 
sides. This was the case with the Reykjavik summit between 
President Reagan and Gorbachev. But it's always better to 
under-promise and over-deliver. Unfortunately, the opposite has 
been the case since 2017.
    In my view, the U.S. team needs to get back to some first 
principles: First, reinforce constantly that the United States 
remains not just open to, but actually interested, in 
negotiating. This will be important for both diplomacy and 
international sanctions enforcement. We have no way to control 
what North Korea does, but we do control what we say and do.
    Second, there should be no more summits without substance. 
We have now tested the theory that leader level negotiations 
will deliver better results than the hard slog of substantive 
diplomacy. The diplomacy leading up to the JCPOA took years of 
subcabinet- and cabinet-level effort, and a comprehensive deal 
was achieved without summits.
    Third, we need a coherent interagency strategy that is 
supported by both the President and his national security team. 
The North Koreans are exploiting the divisions between the 
President and his team. This bifurcation is creating 
dysfunction in our diplomacy, dysfunction in our alliance 
relationships, and ultimately undermining our strategy.
    Fourth, the President needs to stop ingratiating himself to 
Kim Jong-un. While developing a practical relationship with an 
adversary to advance your interest is often necessary, there 
are basic values a U.S. President should not abandon.
    Finally, we need to set realistic objectives on realistic 
time horizons. While complete denuclearization should always be 
our long-term objective, we all know a unilateral surrender by 
Kim Jong-un and beach resorts suddenly popping up on the coast 
of North Korea are not in the cards anytime soon. This is a 
negotiation. The U.S. negotiating team needs to be prepared for 
multiple alternatives to its maximalist positions and to look 
for pathways to get meaningful concessions at an acceptable 
price. And yes, that means reconsidering a step-by-step 
approach and doing the hard work on possible interim deals.
    We also have a lot of work ahead of us on alliance 
management with both Seoul and Tokyo, including the hard but 
increasingly necessary work of trilateral cooperation. We need 
to double down on sanctions enforcement before we cast our eyes 
on new sanctions and develop coherence in sanction diplomacy. 
It was clear from Hanoi that sanctions relief is a key 
motivator to Kim Jong-un. That is our leverage. And we need to 
take steps to strengthen deterrence and defense with an eye 
towards a long game, especially in the event that diplomacy 
fails and the threat continues.
    Finally, I believe Congress has a tremendous role to play 
in our North Korea strategy. I commend the members of this 
committee for important oversight that you are doing and 
especially her close attention to human rights. In my view, the 
administration should view Congress as a partner in its 
strategy. That's the only way we are going to be successful. 
Thank you very much, and I look forward to your questions.
    [The prepared statement of Ms. Magsamen follows:]

                Prepared Statement of Kelly E. Magsamen

    Chairman Gardner, Ranking Member Markey, and members of the 
Committee: it is an honor to be invited to give testimony today on U.S. 
policy towards North Korea after the Hanoi Summit. It is also a great 
honor to testify alongside Dr. Cha, whose extensive experience on this 
issue is unmatched and whose analysis I seek to inform my own.
    Today, after two U.S.-North Korea summits in Singapore and Hanoi, 
North Korea still has upwards of 60 nuclear weapons and is continuing 
to accumulate fissile material to make more. It retains the ballistic 
missile capability to threaten Hawaii, Alaska, the West Coast, and of 
course, our ally Japan and has proven the capability to range most of 
the continental United States. And North Korea retains a conventional 
capacity to put South Korea at unacceptable risk. In sum, the threat 
has not changed.
    I want to be clear at the outset that I am strong supporter of 
diplomacy with North Korea, but I want to also be clear that I think 
the administration is doing it wrong. And while better than the days of 
``fire and fury,'' this problem is not going to be solved through 
reality TV episodes. It's going to take deliberate, integrated and 
coherent interagency effort in close partnership with the international 
community.
                      analysis of the hanoi summit
    In the case of the Hanoi summit, many of us were worried about the 
possibility of a bad deal. The good news is that this did not happen. 
The bad news is that the way forward is now deeply uncertain and full 
of risks. We cannot be complacent in the status quo, even if it is 
better than ``fire and fury.'' We cannot keep grading on a curve.
    The reality is that the Hanoi summit never should have happened. 
The President of the United States went into a room with Kim Jong-un 
for a second time with no firm commitments and only a rough outline of 
possibilities, as well as maximalist illusions of a grand bargain that 
he alone could make. It turns out that this is not a real estate deal--
it's actual rocket science.
    It is also not entirely clear what happened in Hanoi--whether the 
President or Kim Jong-un attempted any meaningful compromises. There 
has been mixed reporting about what may have been offered by the North 
Koreans--vague promises of steps on Yongbyon in exchange for some level 
of sanctions relief. And reports that President Trump offered to ``go 
big'' with a much more expansive deal. Both leaders walked away with 
their own version of events, but what it revealed was the continued 
disconnect on the scope and definition of denuclearization. The fact 
that we do not have a clear understanding of what we are negotiating 
towards continues to be the basic rub. So, we are where we are.
What next for diplomacy?
    Setbacks in diplomacy are to be expected. With proper preparation, 
they can be managed and can even be clarifying for both sides. This was 
the case for the Reykjavik Summit between President Reagan and 
Gorbachev. But it's always better to under-promise and over-deliver.
    Unfortunately, the opposite has been the case since 2017. And it's 
putting us on a path to mismatched expectations and possible 
miscalculations.
    In my view, the U.S. team needs to get back to some first 
principles:

   First, reinforce that the United States remains not just open to 
        but actually interested in negotiating. This will be important 
        for both diplomacy and international sanctions enforcement to 
        demonstrate our seriousness. We have no way to control whether 
        North Korea chooses to engage seriously but do control what we 
        say and do.

   Second, there should be no more summits without substance. We have 
        now tested the theory that leader-level negotiations will 
        deliver better results than the hard slog of substantive 
        diplomacy. The diplomacy leading up to the JCPOA took years of 
        sub-Cabinet and Cabinet level effort and a comprehensive deal 
        was achieved without summits.

   Third, we need a coherent interagency strategy that is supported by 
        both the President and his national security team. The North 
        Koreans are exploiting the divisions between the President and 
        his national security team. This bifurcation is creating 
        dysfunction in our diplomacy, dysfunction in our alliance 
        relationships and ultimately undermining our interests.

   Fourth, the President needs to stop ingratiating himself to Kim 
        Jong-un. While developing a practical relationship with an 
        adversary to advance your interests is often necessary, there 
        are basic values a U.S. President should not abandon.

   Finally, we need to set realistic objectives on realistic time 
        horizons. While complete denuclearization should be our long-
        term goal, we all know a unilateral surrender by Kim Jong-un 
        and beach resorts suddenly popping up on the coast of North 
        Korea are not in the cards anytime soon or maybe even ever. 
        This is a negotiation. The U.S. negotiating team needs to 
        prepare multiple alternatives to its maximalist positions and 
        look for pathways to get meaningful concessions at an 
        acceptable price. And yes, that means reconsidering a ``step by 
        step'' approach.

    The Hanoi Summit was useful in that it clarified some negotiating 
contours: the U.S. will not allow significant sanctions relief for a 
meaningless deal and North Korea remains deeply interested in sanctions 
relief and willing to take steps but is not interested in grand 
bargains.
    Within these contours, the administration should also consider what 
the outlines of an acceptable interim deal might look like. While 
reasonable people can debate the JCPOA, the interim Joint Plan of 
Action reached in 2013 demonstrated that you can in fact perform mutual 
confidence building measures (sanctions relief and freezing significant 
portions of programs) without collapsing international sanctions 
pressure and still reaching a final, more comprehensive deal. Elements 
of that interim deal could include formalizing the current freeze; 
additional freeze on enrichment and reprocessing; limited sanctions 
relief; and other confidence-building measures.
Where do we go with alliance management?
    As we enter this period of uncertainty, alliance relations between 
the U.S. and the Republic of Korea will require a new level of mutual 
dexterity. I am concerned that we are not entirely on the same page 
with our ally despite all the efforts to portray unity. As North Korea 
maintains straining and splitting the U.S.-ROK alliance as one of its 
top objectives, active alliance management must be a critical component 
of the U.S. strategy as we cannot have an effective North Korea 
strategy without Seoul. We need to be sending senior officials to Seoul 
often, making good use of our alliance coordination mechanisms, and 
most importantly, avoiding own goals like the recent heavy-handed U.S. 
approach to the Special Measures Agreement negotiations.
    Washington and Seoul will need to come to a mutual understanding of 
how to handle the stress tests to the alliance that likely lie in the 
months ahead, including a potential return to a provocation cycle by 
the North, new sanctions enforcement measures, or setbacks in inter-
Korean diplomacy such as the recent unexpected North Korean withdrawal 
of its personnel from the Kaesong liaison office. North Korea will seek 
every opportunity put pressure on Seoul, and we should anticipate and 
prepare for those moves together.
    Meanwhile, Tokyo is undoubtedly relieved that a bad deal was not 
reached in Hanoi. But to be clear, the lack of progress towards 
denuclearization is also not in Japan's interest even if the current 
freeze on nuclear and ballistic missile testing provides some temporary 
comfort.
    There is no doubt Prime Minister Abe is happy that North Korean 
ballistic missiles are not flying over Japan. Despite President Trump's 
public promises to Prime Minister Abe that he would raise Japanese 
abductees with North Korea during negotiations, his words absolving Kim 
Jong-un of any responsibility for the death of Otto Warmbier probably 
offer little comfort to Japan of the President's sincerity. Frankly, 
the President's words should give us all pause. At the same time, a 
little coordination with Tokyo can go a long way: surprises like the 
unilateral suspension of military exercises feed Japanese anxiety about 
U.S. diplomacy with North Korea.
    But the most important alliance management effort that the United 
States should be taking right now is working to improve relations 
between Seoul and Tokyo, which may be at their lowest point since the 
restoration of relations in 1965. This will require consistent high-
level effort by the United States, including at the leader level. 
During this period of diplomatic uncertainty, the North Koreans need to 
look out and see that lack of diplomatic progress is bringing the U.S., 
Seoul and Tokyo closer together and not farther apart--that delay is 
not cost-free with respect to its regional security interests. In this 
regard, the recent bicameral Congressional legislation to emphasize the 
importance of trilateral cooperation was an extremely important 
political signal. The President should also put his political weight 
behind these efforts.
What next for the pressure campaign?
    It is important to remember that the goal of sanctions is to 
support diplomacy--they are not an end in themselves. And while 
sanctions will not bring North Korea to its knees, it was clear from 
Kim Jong-un's own behavior at the Hanoi Summit that the pressure is 
working. North Korea remains focused on meaningful sanctions relief as 
its primary objective. It is important to note that the North Korean 
economy has had negative growth for 3 years in a row.
    In the absence of North Korean provocations, the logical focus now 
should be on aggressive sanctions enforcement rather than new 
sanctions. Maintaining the current level of pressure on North Korea 
will be no easy task and requires full time, high-level attention. The 
U.N. Panel on Experts on North Korea outlined several areas where 
sanctions enforcement is falling short. In this regards, the 
administration's decision this week to designate the two Chinese 
shipping companies for sanctions evasion was the right decision. The 
confusing presidential tweet afterwards was not. It portrayed stunning 
incoherence--an incoherence that North Korea, China and others will 
exploit.
    And if serious diplomacy restarts, the administration should 
explore what limited sanctions relief might support an interim 
agreement without necessarily removing leverage. Here, it will be 
important to ensure that U.N. sanctions that deal directly with North 
Korea's nuclear and ballistic programs remain in place. However, the 
administration can look to temporary and proportional sanctions 
relief--through waivers and exemptions--with built in snap-back 
provisions to incentivize North Korea to not just take but sustain 
increasingly meaningful steps.
How do we maintain adequate deterrence?
    During this period of diplomatic uncertainty, it will also be 
especially important that the United States maintains an adequate 
deterrence posture vis-a-vis North Korea. The sustained suspension of 
major alliance joint exercises will present some challenges in this 
regard. While modifying the exercises and finding creative alternatives 
can maintain readiness, it is not a complete substitute for the high-
end exercising. This training and exercising is frankly even more 
important for the readiness of South Korean forces than American 
forces. That said, I do believe sustained suspension is necessary for 
now to ensure that the window for diplomacy is not closed prematurely. 
Unfortunately, when the President made the unilateral decision to 
suspend the exercises temporarily after Singapore, he all but 
guaranteed that any future resurrection would be framed as provocative. 
In that regard, again, we are where we are. In the event of serious 
North Korean provocations, the administration should clearly revisit 
its position.
    Regardless of the ups and downs of diplomacy, the U.S. and its 
allies should be preparing for the long game on deterrence with respect 
to North Korea. If diplomacy ultimately fails, we may find ourselves in 
a long-term deterrence and containment scenario. That is going to 
require a fresh look at defense and intelligence requirements to ensure 
that North Korea cannot proliferate its technology and material, as it 
has in the past. It is going to require that the U.S. take steps to 
ensure adequate defense of our allies and our homeland.
                          the role of congress
    I want to commend the members of this subcommittee for their active 
attention to the North Korea challenge. Active congressional oversight 
on this issue is essential and Congress has the right to understand and 
help shape U.S. policy. As a former Defense Department official, I can 
guarantee you that active congressional oversight is the best way to 
ensure that U.S. strategy is grounded in the interests of the American 
people.
    That said, I would also encourage Congress to also think carefully 
about its role in the pressure campaign. While Congress can usefully 
play the bad cop to add leverage to negotiations and keep pressure on 
the White House, as it did in the case of the Iran, it needs to be 
well-coordinated with our diplomatic strategy. This is where the 
administration could do a much better job of briefing and coordinating 
with Congress and viewing it as an equal partner. What made our Iran 
pressure campaign so successful in 2010 in bringing Iran to the table 
was that we had a well-sequenced campaign of U.N., European and U.S. 
congressional sanctions.
    One area where more pressure can and should be applied in the near 
term by Congress as well as the international community is on human 
rights. However, instead of just purely punitive measures against the 
regime, we should explore ways to improve the lives of the North Korean 
people. The State Department took some steps in this regard earlier 
this year, lifting travel restrictions on aid workers and lifting some 
restrictions on humanitarian supplies. But there is far more than can 
and should be done. According to the United Nations, humanitarian 
funding for North Korea is at a 10-year low. In 2012, it was $117.8 
million. In 2018, it was $17.1 million.
    Full funding of U.N. and other NGO programs providing critical food 
and medical relief to the North Korean people is essential to 
demonstrating that the United States remains a compassionate global 
leader. Further, the position of Special Envoy for North Korean Human 
Rights Issues remains vacant, and this body should demand the 
administration quickly fill it.
                               conclusion
    We all want diplomacy to succeed, but the United States must 
demonstrate to the world that any failure of diplomacy rests squarely 
with Kim Jong-un. We should avoid generating easy opportunities for 
North Korea to split us from our allies. We must be steady, deliberate 
and coherent in how we execute our strategy instead of looking for big 
splashy wins and made for TV moments. Only then can we set the 
conditions for real progress.
    Thank you again for the opportunity to testify today before this 
committee. I look forward to your questions.

    Senator Gardner. Thank you, Ms. Magsamen.
    I'll begin with questions. I want to start with legislation 
that Senator Markey and I have worked together on, the Gardner-
Markey Asia Reassurance Initiative signed into law on New 
Year's Eve this past year. Within that legislation, there is a 
provision that states that not later than 90 days after the 
date of the enactment, which will be tomorrow, and every 180 
days thereafter for the following 5 years, the Secretary of 
State or designee shall submit a report to the appropriate 
congressional committees that describes actions taken by the 
United States to address the threats posed by and the 
capabilities of the Democratic People's Republic of Korea.
    Each report will have a summary of ongoing efforts by the 
United States, talking about our strategies and policies 
including assessments of the strengths and weaknesses of such 
strategies and policies; policies to achieve peaceful 
denuclearizations, to eliminate the threat posed by ballistic 
missiles, a potential roadmap toward peaceful denuclearization, 
specific actions that DPRK would need to take for such a 
roadmap to become viable, a summary of U.S. strategy to 
increase international coordination and cooperation, the 
description of actions taken by the United States to fully 
implement United Nations Security Council resolutions, other 
actions. It goes on and on.
    This report is due tomorrow. I've had multiple 
conversations with the State Department and Department of 
Defense about this report.
    Dr. Cha and Ms. Magsamen, are you hearing that this report 
is imminent, it's been published, it's just waiting to be filed 
tomorrow?
    Dr. Cha. Chairman Gardner, I have not--unfortunately, I 
have not heard that. I think that provision within ARIA is a 
very important one because it speaks to exactly the thing that 
Ms. Magsamen was saying, which is the absence of any 
transparency on the policy. I think this body as well as the 
American public have given the administration a lot of rope in 
terms of their efforts to try to do this in a very 
unconventional way using backdoor diplomacy, not a lot of 
transparency--not just for the Congress, but even within the 
interagency, there hasn't been a lot of transparency--because 
the President wanted to try it his own way. And so he's done 
that. He's done that twice. And there couldn't have been a 
bigger sign of failure then what happened at Hanoi.
    So I think it's high time that there's more transparency, 
there's a regularization of the process, again, as Ms. Magsamen 
said, and this is not just simply an issue of something passed 
by Congress that requires administration action. This is 
actually something that can help their diplomacy, because the 
North Koreans have had three agreements with the United States 
that have come apart because administrations have changed. And 
so the most credible sign to the North Koreans that something 
we negotiate is going to stand the test of time will be if 
there is congressional buy-in.
    So I think at this particular point, as there is not a 
clear road ahead, I think we really need to reset. And a big 
part of that is having the Congress have much more insight and 
input into how we are thinking about this policy.
    Senator Gardner. Ms. Magsamen, are you hearing the same 
thing?
    Ms. Magsamen. Well, I agree with--I haven't heard anything 
about the report unfortunately, but I do agree with Dr. Cha; 
the only way we're going to be successful in the strategy is if 
we have a unified front between the President, the executive 
branch, within the interagency, and the U.S. Congress.
    I think, you know, looking back to my experience on Iran, 
one of the things that made us very successful in the pressure 
campaign was the fact that we worked closely with the U.S. 
Congress on the pressure campaign, the sanction strategy around 
2010. And I think that was a hugely important effort. And 
that's how the administration should be looking at the 
Congress. It should be looking at the Congress as a partner in 
its efforts, to what Dr. Cha said.
    Senator Gardner. One thing in your statements, both of you 
talk about the need for clear diplomatic paths ahead, that that 
seems to be something that we're lacking right now. That 
provision in the Asia Reassurance Initiative gives a very clear 
directive to the administration to let Congress know the buy-in 
that you've both talked about I think is absolutely critical, 
and it gives our allies in South Korea a roadmap to where we 
would like to head, and it certainly lays out to North Korea 
how we will expect them to abide by international law and 
indeed U.S. law.
    Dr. Cha, you mentioned in your opening statement that North 
Korea has not changed and--their strategies. But, you know, the 
U.S. has. And we've not gotten a single thing in return. Could 
you talk a little bit about the ways that you're seeing the 
U.S. policy change toward North Korea as we sit here and speak 
today? What has changed about U.S. policies? And match that up 
against an unchanging North Korea determination to continue its 
nuclear policy.
    Dr. Cha. Happy to. So there are a few things that have 
changed. The first is--well, the first is the summit-level 
meeting. This was something that the North Koreans have wanted 
for decades. It was something the United States has held back 
for a variety of reasons, not just tactically, but on 
principle; without real, genuine evidence of North Korea 
rejoining the international community of nations, it just did 
not make sense to put the President in front of the worst 
dictator, the worst human rights abuser in modern history. And 
so we've changed that. We have given that up.
    The other thing is that we've--when I participated in the 
Six-Party Talks, we did talk about a peace regime on the Korean 
Peninsula as well as liaison offices and possible normalization 
of relations with North Korea. But that was always considered 
to be something that would become towards the end of a process, 
or at least while a denuclearization process was well under 
way. And again, these were things that it looked like, at least 
prior to Hanoi, were being willfully put on the table by the 
United States as the price for entry into the negotiations.
    Third is that while I think every administration reserves 
the right, because the policy is so difficult, to have a degree 
of space when it comes to dealing with negotiating with North 
Korea, this administration, again, used very unconventional 
means, back channels that had really no advising that was given 
either to this body or even to members of their own 
administration nor allies. And I think that's something that's 
quite different.
    And what has remained consistent on the North Korean side 
is, and to me, this was the most disappointing part of the 
Hanoi summit, was the position that they walked in with was a 
position I think that was well-aware to us in advance, to the 
U.S. side, and was unreasonable and I think for many was seen 
as sort of an opening gambit. But the fact that they came in 
with the same position at the leadership level with the U.S. 
President, a position that you would expect them to take in a 
working-level meeting in the first round was the same position 
they held until the meeting with the President was very 
disappointing and really showed a lack of flexibility and 
unwillingness, really, to negotiate in earnest.
    Senator Gardner. Thank you. And Dr. Cha, just to summarize, 
I mean, you basically have this summit that has now been 
offered twice. We have this sort of normalization of relations 
with North Korea that may be on the table now. You have 
unconventional means with no sort of advising of allies or 
administration colleagues. You have this position of Kim Jong-
un that has not changed that we knew going in. And I'll add to 
that list we now have sanctions that are being waived by the 
President after Treasury, by law, issues them. And it seems 
that we have now changed dramatically, and the one consistency 
is Kim Jong-un's nuclear program.
    I think this body ought to be growing more and more 
frustrated with the U.S. continuing to change our policy while 
Kim Jong-un sits back and continues to develop fissile 
material, nuclear weapons without doing a doggone thing except 
watch the United States change its negotiating position.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, and I agree with 
you completely.
    Thank you for being here. On Friday, President Trump caused 
confusion when he tweeted, ``It was announced today by the U.S. 
Treasury that additional large-scale sanctions would be added 
to those already-existing sanctions on North Korea. I have 
today ordered the withdrawal of those additional sanctions.'' 
But of course, no new sanctions had been announced. The 
Treasury Department announced two additional designations a day 
earlier, but those represented regular updates to existing 
sanctions.
    Both of you are international relations experts. You have 
spent your career studying the nuances of how governments 
achieve policy goals. How important is signaling in 
international relations, especially when we are in 
negotiations? What are the implications of sending mixed or 
muddled messages? How did President Trump's tweet from Friday 
affect U.S. messaging? Ms. Magsamen?
    Ms. Magsamen. Thank you, Senator. About a year ago, January 
2018, I gave testimony before the Senate Armed Services 
Committee about North Korea, this same topic. And I said the 
most important part of our strategy has to be clear and 
consistent strategic messaging. And I think Friday's events 
over the issuing of sanctions and the sort of alleged waiving 
of sanctions, potentially new sanctions, I think creates 
confusion, and it demonstrates to the North Koreans that 
there's divisions within the administration potentially on 
these issues, which, those divisions are the ones they will 
exploit.
    To Dr. Cha's point, when the President walked into the 
Hanoi summit, they had the same position knowing that there was 
division within the administration, so they were going to try 
to test their position with the President of the United States 
directly. So I think it's essential that the President and his 
national security team be on the same page on their strategy. 
This is something that, for the North Koreans, they will 
exploit every possible division. For our allies, it creates 
complete confusion over who has the ball, whose view is 
prevailing within the administration. And I think that's really 
bad for our strategy.
    You know, I think with respect to sanctions, I think 
Treasury's actions last week were completely appropriate. They 
were with respect to sanctions enforcement of existing 
sanctions. And so what they were doing I think was really 
important. As we look now in this period of uncertainty, 
sanctions enforcement is going to be essential going forward. 
So I was very confused by what the President did through his 
tweet on Friday, and I'm certain that our allies in the 
international community--including the financial community, the 
business community--they're all very confused about where we're 
going.
    Senator Markey. Yeah.
    So, obviously we're concerned about this, Dr. Cha, and its 
potential signaling to Russia and China that we're not really 
sincere in implementing the already-existing sanctions, 
allowing for additional slippage in terms of the pressure on 
North Korea for them to change their behavior. Could you talk 
about your response to what happened last week?
    Dr. Cha. Yes. So I think, like all of us, everybody was 
quite confused by the tweet. I would agree with everything that 
Ms. Magsamen said. I think it reinforces the worst tendencies 
of--the worst tendencies that have actually led us to where we 
are right now, which is two summits and absolutely no progress. 
If anything, North Korea has increased its weapons stockpile 
since the Singapore summit.
    So the problem is that these sanctions--the North Korean 
leader made clear what mattered to him at Hanoi. It wasn't a 
peace regime. It wasn't liaison offices. He had his time with 
the President, and the one thing he focused on was sanctions 
relief. So we know that that--as Ms. Magsamen said too--that is 
our leverage. That is our point of leverage. That is what they 
value. And for us--for the President then to go out and 
essentially undercut his own leverage in dealing with this 
problem, it doesn't make a great deal of sense and, again, 
reinforces this tendency for the North Koreans to believe that 
they can abandon the working-level discussions, which tend to 
be harder, it's a harder slog, and think they can just go for 
the home run or the touchdown, if you will, which is with the 
President of the United States.
    I would add to what Kelly said in that not only did they 
believe coming to Hanoi that they could make a run at the 
President and see if they could change his position, they 
didn't have a fallback position. They didn't have a plan B, 
which meant they really believed that they could bypass the 
U.S. national security establishment and try to cut a deal with 
the President.
    Senator Markey. Okay, great. Thank you.
    Now, Ms. Magsamen, let me go to you again. The U.N. Panel 
of Experts report raises concerns about a ``massive increase in 
illegal ship-to-ship transfers of petroleum products and 
coal,'' but these transfers rely on brokers like the overseas 
representatives of the RGB, a North Korean intelligence agency. 
The U.N. report states that one known broker for ship-to-ship 
transfers is an individual based in Shenyang, China. Elsewhere, 
the report implies that China is not closing the bank accounts 
of family members of North Koreans' overseas representatives 
when those accounts are used to evade sanctions, allowing North 
Korea to maintain its access to the global financial system. 
And finally, the report notes that the Chinese messaging and 
payment platform WeChat is ``the primary means'' of 
communication for ship-to-ship transfers in the East China Sea 
and the Yellow Sea.
    What should the Trump administration do to tighten China 
sanctions enforcement? Is it likely the Chinese government has 
conducted appropriate outreach to banks and payment platforms 
to encourage proactive compliance with global sanctions?
    Ms. Magsamen. Thank you, Senator. It's a very important 
question. I think, you know, sanctions enforcement has to be at 
the top of the priority list right now in this period of time. 
And I think the administration has done a pretty good job of 
putting in place very important sanctions since 2016.
    I do think that it's time for the administration to 
potentially dedicate some high-level, senior, almost cabinet-
level or subcabinet-level effort to this. In the case of Iran 
strategy, we had Under Secretary of the Treasury Stuart Levey 
at the time going around the world working on sanctions 
enforcement around the world. I think a similar effort needs to 
be taken now. Somebody at the Treasury Department or the State 
Department needs to be appointed full-time in charge of 
sanctions enforcement on North Korea. I think that'd be hugely 
valuable. It's not clear to me that Steve Biegun or others have 
that kind of time, given all the other challenges they've got 
to face. So, and part of that has to be China. Part of that has 
to be sitting on China all the time, every day, ensuring that 
the Chinese are taking action.
    Now, whether or not the trade dispute currently between the 
President and Beijing is interacting or affecting any of this 
is not clear to me. I think the President needs to make clear 
to President Xi Jinping that this is an essential priority for 
the United States that sanctions enforcement for North Korea is 
going to be the top of the list regardless of whatever 
negotiations are going on, on the bilateral trade issues. I 
think it's important that the President reinforce that directly 
with Beijing.
    Senator Markey. Beautiful.
    Dr. Cha.
    Dr. Cha. I think this point about reinforcing this message 
to China is very important at the highest levels. I mean, not 
just--but consistently across all levels of the U.S. 
government. So even as members of U.S. Congress travel, it's an 
important message to send because, you know, the Chinese used 
to make the argument when we called for them to put more 
sanctions on things as remote as this--ship-to-ship transfers, 
payments through WeChat--the argument they used to make is 
that, you know, we're a big country, it's very decentralized, 
we can't do all this stuff. But the reality is when they want 
to, they can. And they did, in the last quarter of 2017, put 
very serious sanctions on North Korea. So they have the 
capacity to do this if the will is there, and the will, will 
not be there if the United States is not on all channels 
sending this very important message.
    The other thing I'd like to add is that when we talk about 
increasing sanctioning on North Korea, this is not increasing 
sanctioning because the Hanoi summit failed; it's increasing 
sanctioning because they are violating current sanctions so 
that there's a question of enforcement of existing sanctions, 
existing law, and also because they continue to proliferate, 
they continue to develop weapons and fissile material, and they 
continue to violate human rights. That's why the sanctions are 
there.
    Senator Markey. So what do you make of the fact that the 
administration has only designated 34 individuals, entities, 
and vessels in connection to North Korea even as the latest 
U.N. Panel of Experts report details serious shortcomings in 
sanctions enforcement, and through this lack of action, the 
Trump administration has boxed itself in. The world has the 
impression that simply adding entities to our North Korea 
sanctions list is a serious escalation instead of just routine 
maintenance, which is really what it is. What message is that 
sending?
    Ms. Magsamen. Well, I think it sends a message that the 
administration needs to update its messaging at the highest 
levels about what we're actually trying to do. I think it's 
very important that we be clear and consistent with the 
international community about sanctions enforcement so it 
doesn't become an escalatory situation, as you point out, 
Senator.
    Senator Markey. Beautiful.
    Dr. Cha. The thing I would add is that, I mean, what the 
Panel of Experts did highlight is that North Korean efforts to 
circumvent sanctions are robust, and they're effective. They're 
effective at doing this. So part of this is not the 
administration's fault, in the sense that North Korea is 
finding workarounds. But once we identify what those 
workarounds are, we have to go after them right away.
    And so the statement that you described, Senator that the 
President made on--was it Friday? I mean, that just completely 
undercuts the whole philosophy behind why we pursue sanctions.
    Senator Markey. Thank you.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Markey. And I want to 
correct one of my comments earlier--it's good news for the 
State Department--they actually have a few more days. 
Tomorrow's not March 31st. So they have a few more days to get 
this report done.
    In a letter that Senator Markey and I sent to Secretary 
Pompeo and Secretary Mnuchin March 14th, and I'm going to 
submit this for the record if there's no objection, but in this 
letter, we reminded the administration about the March 31st 
report that would lay out the roadmap, diplomatic security 
strategic roadmap as it relates to North Korea. We reminded 
them of this deadline, in law that the President signed on the 
31st of December and we also talked about this pace of 
sanctions. And here's what we said:
    ``Unfortunately, it appears that the pace of U.S. sanctions 
designations with regard to North Korea has slowed 
considerably. According to research conducted by the Foundation 
for Defense of Democracies, since March 31, 2017, the Trump 
administration sanctioned 182 persons and entities for North 
Korea sanctions violations; however, after February 23, 2018, 
the Treasury Department has issued only 26 new designations 
despite ample evidence of illicit behavior from Pyongyang and 
its enablers.''

    [The information referred to above is located at the end of 
the hearing.]

    Senator Gardner. So you have this slowing of pace. The law 
requires--the North Korea Sanctions Enhancement Act requires 
that the U.S. investigate and designate those who violate our 
sanctions. If they don't, then it requires a waiver from the 
administration.
    So I think we've only received one or two waivers, perhaps 
a few more, but, clearly, Treasury knows of more violators. So 
are they going to move forward with this or not? Is the 
administration going to continue to offer waivers? And I assume 
that we should be expecting waivers, then, for the sanctions 
that apparently the President waived on Friday. I assume that 
has to follow the law, because the law says that they should be 
sanctioned, and that's what Treasury was doing. So I guess we 
anticipate those waivers.
    There seems to be this willingness to give up sanctions, 
but yet, going back to the question I asked before, nothing in 
return. So on Friday, the sanctions were lifted or waived, or 
waived off, and there was nothing that we got in return.
    I mean, Ms. Magsamen, are you aware of anything the United 
States got in return or for the waivers of those sanctions?
    Ms. Magsamen. Certainly not.
    Senator Gardner. And Dr. Cha.
    Dr. Cha. No. I mean, the one thing that was reported in the 
press was that the North Koreans had left the inter-Korean 
liaison office and then they came back, but there's no way that 
one could say one caused the other.
    Senator Gardner. Well, and even if it did, Dr. Cha, I think 
that the concern is that their bad behavior gets rewarded.
    Dr. Cha. Oh, absolutely.
    Senator Gardner. So they walk away of their own volition, 
we give them something in return, and they come back to 
something they walked away from.
    Dr. Cha. Right, which they would consider a major success.
    Senator Gardner. My growing concern is that we had this 
successful maximum-pressure doctrine that was put in place and 
that it was beginning to work. My concern is that we are slow-
walking back into strategic patience. And I hope we can get 
clarity with this report that's due on March 31st. We'll have 
an opportunity to hear from General Stilwell tomorrow at a 
confirmation hearing. We're going to talk about this. But my 
concern is that the administration is slow-walking back into a 
strategic patience.
    Now, strategic patience led to the continued production. I 
guess it's the status quo. I guess maybe it's no different than 
we are in today, right now. If the United States simply gives 
up on this progress or just decides to live with a nuclearized 
North Korea, the risk of that is unacceptable. And the 
proliferation risk--could you explain the proliferation risk if 
we don't change course right now with North Korea?
    Dr. Cha. Sure. I mean, it's multidimensional. As you know 
well, Chairman, that the one most concerning thing, of course, 
is the growth of the homeland security threat as North Korea 
perfects long-range delivery systems to mate with their nuclear 
warheads. The other is the concern about sale. North Korea 
unfortunately has sold every weapons system it has ever 
developed, from small arms to ballistic missiles. The Ghauri 
missile, the Shahab missile are all first-generation North 
Korean ballistic missiles.
    As some of our research has shown, North Korea has at least 
20 undeclared missile bases that are part of the mainstay of 
their short-, medium-, and long-range ballistic missile 
program, none of which appear to be part of any sort of ongoing 
negotiation.
    So you're absolutely right. There is--if we fall back into 
a sort of patience, strategic patience, if you will, policy, 
this will do nothing to stem the collaboration threat.
    Senator Gardner. In September--and Ms. Magsamen, I don't 
know if you wanted to comment on that or not.
    Ms. Magsamen. I will say I do think that we have to keep 
the door open to diplomacy. I think that's the only way this 
threat is ever going to be addressed in the end game. I do not 
think that sanctions alone are going to produce the result that 
we want, so I do think it's important that the administration 
continue to try to pursue diplomacy with Korea.
    I think the most important thing that we could be doing 
right now is alliance management. I think we are entering a 
period that's going to be a little bit topsy-turvy in this 
regard with respect to the strategic comparatives that Seoul 
has, where Tokyo is and their concerns, the fact that 
trilateral cooperation has pretty much collapsed and the 
relationship between South Korea and Japan is falling apart.
    I think there's got to be a sort of maintenance level of 
diplomacy among our allies right now to ensure that we are all 
working on the same sheet of music, that we all anticipate what 
the North Koreans are going to throw our way, what the Chinese 
are going to throw our way and the Russians are going to throw 
our way, and that we work collectively to address it in this 
period of time.
    Senator Gardner. And something like the report that's 
required by law due March 31st would help us meet those sort of 
concerns you have, correct?
    Ms. Magsamen. Absolutely. I think it's really important 
that the administration lay out its strategy and work in 
partnership with Congress to effectuate it.
    Senator Gardner. In September of last year, Secretary 
Pompeo made the following statement, talking about some of the 
conversations they've had with Steve Biegun and the invitation 
of various Korean officials to the negotiations: This will mark 
the beginning of negotiations to transform U.S.-DPRK relations 
through the process of rapid denuclearization of North Korea to 
be completed by January 2021 as committed by Chairman Kim and 
to construct a lasting and stable peace regime on the Korean 
Peninsula, Secretary Pompeo said.
    Are we on the same time frame, rapid denuclearization by 
2021, Dr. Cha?
    Dr. Cha. It certainly doesn't appear to be the case, 
Chairman. The one thing if I could add to the point about 
sanctions, the North Korea Sanctions Policy Enforcement Act, 
the provision ARIA, is that this also has international 
support. I mean, if the EU3, other countries, with the 
exception of China, maybe, and Russia, this sanctions policy 
has had universal support among all U.N. member states, backed 
by 11 U.N. Security Council resolutions, in addition to 
existing congressional legislation.
    Senator Gardner. Thank you.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    The U.N. Panel of Experts report on North Korea tells the 
story of one U.S. effort to stop North Korea from importing 
refined petroleum products above the U.N.'s cap of 500,000 
barrels. In July of 2018, the United States notified the U.N.'s 
North Korea Sanctions Committee that the Kim regime had hit its 
import limit back in May of that year in part by relying on 
illicit ship-to-ship transfers, yet Russia repeatedly objected 
to the numbers and evidence collected by the United States.
    In September, despite U.S. documentation of 148 deliveries 
of refined petroleum products to North Korea along with images 
and explanations of the process by which transfers occurred, 
Russia asked to put the U.S. request ``on hold.''
    Question: In Russia, they seem to be in denial. And so, is 
Russia protecting the Kim regime because Russia profits from 
continued sales of refined petroleum products, because Russia 
has an interest in undermining the effectiveness of U.S. 
sanctions on North Korea, or because Russia has a broader 
interest in undermining all U.S. sanctions? Dr. Cha?
    Dr. Cha. Yes, I saw that data as well, and it was very 
concerning. I think the issue with Russia is, I do agree that 
they see interest in and of itself in undermining broader U.S. 
policy efforts on the Korean Peninsula and in Asia. When it 
comes to North Korea in particular, I have found over the past 
decades that Russian policy is very self-serving. So it could 
simply be for the fact that they are making money off these 
ship-to-ship transfers, that they would do it that way. It was 
the same reason that they were willing to offer North Korea 
civilian nuclear reactors and technology when the international 
community was against providing those things to them and was 
trying to convince them of alternative energy sources if they 
were to give up their plutonium reactors.
    So there's a very self-serving nature to their policy on 
the Korean Peninsula, and this piece of data appears to fit 
with that longer-term behavioral trend.
    Ms. Magsamen. I agree with Dr. Cha, and I'm very glad you 
raised it, Senator, because I do think there's a lot of 
American focus on Chinese enforcement of sanctions, but we have 
a similar problem on the Russia front, so I'm glad you raised 
it. More attention needs to be put on the Russia sanctions 
enforcement issue, and I agree with Dr. Cha that they generally 
want to make money, they want to play spoiler. And so really 
watching the Russia flank on sanctions enforcement is going to 
be very important going forward.
    Senator Markey. Okay, great.
    Now, let me follow up with the next question. The State 
Department recently estimated that in 2018 there were--this is 
an unbelievable number--100,000 North Korean citizens working 
as overseas laborers primarily in Russia and China. And in 
addition, the State Department explicitly named 35 other 
countries in which these workers were present. Another report 
from the firm C4ADS noted that despite mandatory sanctions 
authority targeting employers of Korean workers, relatively few 
employers have faced any action at all.
    Question One: North Korean overseas laborers work under 
oppressive conditions, and the Kim regime uses them to generate 
hundreds of millions of dollars in revenue every year. Why do 
you think we haven't taken more action in the Trump 
administration against companies that continue to employ North 
Korean workers, and what should the administration be doing 
instead? Ms. Magsamen?
    Ms. Magsamen. I don't know why the administration hasn't 
taken more action. I do think this goes back to an earlier 
point I made. I think there has to be somebody in charge of 
sanctions enforcement across the interagency. And that person 
needs to be high-level, they need to be going out doing the 
capital-to-capital engagement on sanctions enforcement that we 
did during the previous administration and also in the Bush 
administration on Iran. I think there needs to be someone who's 
given this ball to run with, whether it's on Russia, shipping, 
or coal or, you know, overseas workers. Somebody needs to be 
put in charge of this full-time.
    Senator Markey. Okay. Thank you.
    Dr. Cha, according to press reports this morning, Russia 
and China recently told the U.N. that they sent home more than 
half of the workers in their countries during 2018. How 
credible do you think that self-reporting is, and do you expect 
China and Russia and the other countries to meet the U.N. 
deadline of December 22nd of this year to repatriate to North 
Korea all North Koreans earning income in their countries?
    Dr. Cha. As you said, Senator, they are obligated by the 
U.N. to do this. Self-reporting--well, I would believe the 
self-reporting like I believe China's self-reporting on their 
economic trade with North Korea, which is I don't believe it 
very much.
    Yes, the solution here, at least from a U.S. policy 
perspective, is secondary sanctioning of the companies that we 
know are doing this, regardless of what country they're in. The 
other is if governments claim ignorance, then we should be 
providing them information on the companies that are 
undertaking this activity so that they could then be stopped. 
And if they're not stopped, then we sanction them.
    Senator Markey. Okay. Beautiful.
    Thank you, Mr. Chairman.
    Senator Gardner. Senator Young.
    Senator Young. Thank you, Mr. Chairman.
    And I want to thank you, Dr. Cha and Ms. Magsamen, for 
being here today offering your thoughtful testimony.
    This is really for both of you. South Korean President Moon 
has said that Seoul will work to get nuclear negotiations back 
on track in the wake of the Hanoi summit. Moon has been a 
critical player in the relationship between South Korea and 
North Korea and the United States. Do you both believe that 
President Moon desires to see a unified Korean Peninsula, and 
if so, how should the idea of a unified Korean Peninsula inform 
next steps in the wake of the summit? Dr. Cha?
    Dr. Cha. So I think the South Korean President is committed 
to an engagement strategy with North Korea. The tip of the 
sword of that is really economic engagement using economic 
incentives to bring North Korea to the table. I think the 
ultimate goal of that is not necessarily unification, but it is 
to try to create at least a one country, two systems approach 
for the time being.
    The current South Korean President hails from the 
progressive end of the political spectrum. And there's a long 
line of thinking in the progressive end of Korean politics that 
the goal is not unification, but it is to try to create this 
one country, two systems, where there is an economic marriage 
between the two sides, but they would allow the North Koreans 
to maintain sort of a separate political entity, at least for 
the foreseeable future. And the reason----
    Senator Young. Sort of a confederacy?
    Dr. Cha. Yeah, a confederacy of sorts, that it's sort of a 
non-conflictual political solution. There's lots of human 
rights issues that come up with something like that. But I 
think that's what they're aiming towards.
    And then, to your question of incentives, I don't think now 
is the right time for the South Korean government to be 
providing incentives to North Korea. It would again undercut 
the overall strategy that is being--that we are trying to 
prosecute along with our allies.
    Senator Young. Ms. Magsamen.
    Ms. Magsamen. I agree with Dr. Cha. I do think that we 
can't have a North Korea strategy without Seoul, however. So I 
think right now it's----
    Senator Young. Gotta have soul.
    Ms. Magsamen. Huh?
    Senator Young. It's gotta have soul.
    Ms. Magsamen. It's gotta have soul, of all sorts.
    So I do think it's really important for the United States, 
the administration to sit down with South Korea right now and 
anticipate some of the ways that North Korea is going to seek 
to divide the United States from South Korea. And there are 
going to be stress tests along the way. I think we saw it over 
the weekend with the North Koreans pulling their folks out of 
the Kaesong complex and sending them back in. I think these are 
the kinds of maneuvers that the North Koreans are going to 
pursue. And while reunification may not be Seoul's objective, 
we have to remember that Kim Jong-un does have that objective 
of a reunified Korea. And so I think we need to be vigilant 
with respect to defense of South Korea as well, in terms of 
deterrence.
    Senator Young. So can you speak to China's fears, 
apprehension, or anxiety related to a unified democratic South 
Korea that is friendly to the United States? Dr. Cha?
    Dr. Cha. So I think it's exactly for that reason that China 
opposes a unification of the Korean Peninsula, if there were 
ever unification. The only foreseeable way in which that could 
happen would be as you described, Senator, a democratic free 
ally of the United States that would then be directly be on 
China's border.
    Senator Young. And do they fear that more than a nuclear-
armed North Korea?
    Dr. Cha. Oh, I think so. I think they do, yes.
    Senator Young. Okay.
    Ms. Magsamen. Yeah, I actually, I agree, and I also think 
that Beijing breathed a sigh of relief after Hanoi. I think one 
of their nightmares was potential actual progress in the 
relationship. And so I think they are currently very pleased 
with the status quo.
    Senator Young. Dr. Cha, in your testimony, you state that 
human rights continue to be neglected in the administration's 
summit policy with North Korea. You continued by stating that 
it is impossible for U.S. denuclearization diplomacy to succeed 
without integration of the human rights issue.
    I am deeply concerned about the horrific human rights 
abuses that are ongoing in North Korea and that it seemed to be 
left out of any conversation at the summit. What actions do you 
propose that this body, or more broadly, the international 
community take to confront this issue?
    Dr. Cha. I mean, there are a number of things. One of the 
most important things is to call on the administration to 
appoint a senior envoy for North Korean human rights abuses as 
mandated by this body. I think their current thinking is they 
have folded this position into an assistant secretary-level or 
acting assistant secretary-level position. But the reality is 
that you need a senior envoy out there who will be a voice for 
this issue because there's no one else in the world who will be 
a voice for Korean human rights aside from this senior envoy. 
And this senior envoy, in conjunction with our ambassador to 
the U.N., which is also a vacant position, is critical to 
moving the Security Council in their vote on discussing the 
North Korean human rights issue on the agenda.
    So there are a number of things that can be done that are 
very important to bring this back to the level--to the 
visibility that this issue had only a couple of years ago in 
the aftermath of the U.N. Commission of Inquiry on Human Rights 
and the passage of the North Korean Human Rights Act.
    Senator Young. Thank you.
    Can I make an observation? Both you and Ms. Magsamen are in 
agreement that a senior envoy, a special envoy should be 
appointed for various purposes to be a focal point and provide 
leadership through the interagency on some of these different 
issues. We've done this in so many different areas over the 
years. There are dozens of special envoys. This is something we 
addressed over the last couple of years. And it seems to 
suggest that the State Department's structure is flawed. This 
is a whole other hearing and so forth, but just an observation, 
and it was something former Chairman Corker and I would discuss 
quite a bit. If you have the functional personnel and the 
geographic personnel not accomplishing these jobs optimally, 
and the workaround, administration after administration, 
Republican and Democrat alike, is to always appoint special 
envoys that seems to me incongruous. You don't have private 
entities frequently creating these czars internally. The 
organizations work.
    And so, just for anybody, you know, for the 43 individuals 
who might be watching this subcommittee hearing right now----
    [Laughter.]
    Senator Young. And just, I think as an issue of sort of, 
like, organizational management, it's interesting. I don't 
doubt or acknowledge that in some cases, special envoys--maybe 
this case--it's entirely appropriate because of the gravity of 
the situation. But it does seem to be like a very consistent 
fallback for the State Department in particular, and it seems 
to suggest some organizational failings.
    So if you have any, kind of, general thoughts, great, but 
we don't have to spend a long time on it here.
    Ms. Magsamen. Well, I think it's a very good question. I 
mean, I do think that there are some challenges that require 
just kind of a high-level amount of attention and focus that an 
assistant secretary who has a broad scope--trust me, I have 
seen this from experience--has such a broad scope of 
responsibilities, it's very hard for them to get on the road 
and go to Beijing and Moscow and Tokyo and Seoul and just spend 
their entire time on North Korea.
    So I do think there's some aspect to that. But also, I 
think the other option is empowering, appointing, nominating, 
you know, getting confirmed and empowering assistant 
secretaries to do that work. And in that case, we've had some 
failings in the last couple of years.
    Senator Young. We completely have. We've had failings to 
nominate, and then we've had extended delays in confirmation 
and--so that's kind of like a bipartisan affliction, and we 
need to solve it ASAP.
    So thank you so much for being here.
    Senator Gardner. Thank you, Senator Young.
    And just kind of going over a couple of the questions and 
comments you have made, in light of leverage that the U.S. has 
on sanctions, in light of continued diplomacy, in light of the 
offer that Kim Jong-un made at the Hanoi summit, in light of 
the President's decision to waive off the sanctions the 
Treasury called for last week, if you're Kim Jong-un today, do 
you have a new offer that you're willing to make to the United 
States, or are you just going to stick with what you're 
offering because the U.S. position continues to change?
    Dr. Cha. Well, if we continue to do what we did on Friday 
and I'm Kim Jong-un, I'm just going to sit tight and have a 
beer and wait.
    Senator Gardner. Yeah.
    Dr. Cha. Wait to see what we're going to do. You know, we 
end up negotiating with ourselves in the sorts of down periods 
of the diplomacy, and you know, the President took a very big 
step in that direction on Friday.
    Senator Gardner. Yeah. And again, that's my concern. I 
mean, we've given nothing to Kim Jong-un to have him change his 
mind, to change his offer, to change his position. We 
consistently have been, at least now, consistently changing our 
position and not sticking with maximum pressure, which is 
something that I think was effective and helped bring people to 
the table in negotiations.
    That being said, do we need new sanctions authority to 
cover what Senator Markey was talking about on the petroleum 
side of things, things like the LEED Act, Senator Markey and I 
have the LEED Act, do you think the passage of something like a 
LEED Act-type initiative for the sanctions, creating more of an 
economic embargo on North Korea, would put us back into a 
position where it could change the negotiating posture of Kim 
Jong-un?
    Dr. Cha. Well, I think it was made very clear at the summit 
by the leader himself what he values the most in our strategy, 
and that has been the economic pressure. Because we have to 
remember that the North Korean leader is not term limited. And 
he's planning on ruling not for 5 years, but for 50 years. And 
it's very clear that the pressure that has been brought to bear 
thus far, in no small part because of this body, albeit 
imperfect, has really made an impact. And that is why that is 
the one--he didn't ask for peace on the Korean Peninsula. He 
did not ask for normal political relations with the United 
States. He asked for one thing, and that was sanctions relief 
because he can't rule like this for 50 years.
    So this is the leverage point, as Ms. Magsamen said, and 
things like the LEED Act are a very important step forward.
    Senator Gardner. Ms. Magsamen, on the bilateral 
management--alliance management, excuse me, in the bilateral 
and trilateral relationships at stake here, what more should we 
be doing in that bilateral management and also to make it even 
more clear about the importance of Japan, South Korea, and the 
United States being a part of the solution?
    Ms. Magsamen. I think it's hugely important right now. I 
actually think at the trilateral level, we need to see some 
leadership from the President of the United States on this 
issue. I think he needs to make clear to both Seoul and Tokyo 
this is a priority for him. I think in this period of whatever 
lull we're calling this in diplomacy, I think the most 
important thing we can demonstrate to the North Koreans is more 
unity among the three capitals. And I think some sort of show 
of political unity is going to be essential in this period of 
time, but that's going to require the leadership of the 
President of the United States. It's not going to come from the 
Minister level or the Secretary of State level. This has to be 
pushed at the highest levels. We experienced that during the 
Obama administration when President Obama really had to push at 
his level on trilateral cooperation. So I think that's really 
the way to go at this stage.
    Senator Gardner. Thank you. And Congress, of course, has 
introduced language that would further bolster the trilateral 
relationship and cooperation and the importance of Japan, the 
United States, and South Korea coming together on this.
    A question I wanted to ask as you talked about the 
dismantlement of the satellite facility, Dr. Cha, North Korea 
has willingly volunteered that they would dismantle various 
components of from time to time, but then they always seem to 
be able to put them back together, so a complete dismantlement 
doesn't ever seem to actually be achieved, because if you can 
put it back together, you must not have taken it apart in a way 
that it couldn't be put back together.
    So as we look at sort of the concrete actions that we need 
for complete, verifiable, irreversible denuclearization, what 
are some outcomes that we could get from North Korea that would 
represent those concrete actions that might actually justify 
further opportunities for negotiations and diplomacy?
    Dr. Cha. It's a great question, Chairman. I think the 
dismantlement and then reassembly of the Sohae satellite launch 
facility demonstrated clearly how North Korea can reverse 
whatever actions that it's taken. I think that was an important 
lesson for us to learn. And one of the things that we have to 
focus on is not just focusing on token dismantlement, but--not 
to get too technical on language, but we have to focus on 
disablement, actual activity----
    Senator Gardner. Salting the fields.
    Dr. Cha. Salting the fields, putting sand in the gears, 
things that actually create a disablement platform from which 
you can then dismantle.
    What North Korea has become an expert in doing is doing 
exactly what they did at Sohae, which is to take some token 
steps, but then easily ones that they can reverse to send a 
political signal in full view of commercial satellites so that 
they can signal to us that they are taking a step backwards 
again. So, going forward, if we ever get back into a 
negotiation with them, it is very important for our 
administration to understand that steps like that aren't really 
credible dismantlement steps.
    Senator Gardner. So actual disablement would be a concrete 
step of the important facilities.
    Dr. Cha. Yes.
    Senator Gardner. Ms. Magsamen.
    Ms. Magsamen. Yeah, I do think that--while I wouldn't put 
new deals on the table right now, I do think that the 
administration does need to do some internal planning work 
around what interim deals could be acceptable to them. And I 
think part of that is what Dr. Cha addressed in terms of that 
kind of steps, but also, you know, even freezing of enrichment 
and reprocessing at various facilities. These can be things 
that we look for in an interim deal in exchange for very 
limited and reversible sanctions relief with potential 
snapback, for example.
    I think, you know, I looked back at--you know, there's a 
lot of debate about the Iran nuclear deal, but in 2013, the 
joint plan of action was successful and did show that you could 
pursue an interim deal and still maintain sanctions leverage to 
get a final deal. So I do think that the administration does 
need to do some internal planning about what would be 
acceptable to them, where our redlines are, what we think would 
be a meaningful step, and have that prepared in the event that 
diplomacy reemerges.
    Senator Gardner. And that kind of a roadmap or plan was 
something that you could cover in a March 31st report that is 
due by law; is that correct?
    Ms. Magsamen. Potentially, although I'm not sure I would 
publicize everything in my plan, but----
    Senator Gardner. But there is an option for a classified 
annex if they would like to do that.
    Ms. Magsamen. But certainly, they could certainly brief the 
Congress about what their plans are.
    Senator Gardner. Well, thank you for that.
    Dr. Cha, Ms. Magsamen, is there any further comment, final 
comments you'd like to make?
    Dr. Cha. I just want to add to what Kelly said about why 
this sort of report that you are acquiring on March 31st 
becomes important, because in order--and you all know this 
well--in order to write a report like that, you have to have an 
interagency process where they agree on choices that they're 
going to make. So are we going to, if we get disablement, then 
talk about temporary suspension of sanctions that can be snap-
backed, or are we going to instead coordinate with the South 
Koreans to say, ``And then you can provide some assistance.'' I 
mean, these are choices and policy that have to be made far in 
advance of a negotiation, and, you know, a document like this 
forces the administration to sit down and work through what are 
the choices that they want to make in terms of a strategy going 
forward.
    Senator Gardner. Thank you.
    Ms. Magsamen, final comments?
    Ms. Magsamen. I completely agree. It is a forcing function.
    And then the final comment is thank you again, Chairman, 
for this committee's leadership on this issue and the oversight 
of the North Korea challenge. It's hugely important. Thank you.
    Senator Gardner. Well, thank you very much for your time 
and testimony. Thank you both for this great opportunity and 
for your responses.
    For the information of all the members who are here, the 
record will remain open until the close of business Thursday, 
including for members to submit questions for the record. We 
just ask that you provide a timely response to those questions. 
They will be made part of the record.
    Senator Gardner. And so, with the thanks of this committee, 
thank you very much. This hearing is now adjourned.
    [Whereupon, at 10:47 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Letter to Secretary Michael R. Pompeo and Secretary Steven T. Mnuchin 
                 Submitted by Senator Edward J. Markey
                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                  <all>
</pre></body></html>
